®mtetr H>tate£ Court of Appeals
for tfic Jfiftfj Circuit

United States Court of Appeals
Fifth Circuit

FILED

October 19, 2020

No. 17-11342

Lyle W. Cayce
Clerk

United States of America
Plaintiff—Appellee,
versus
Victor Manuel Solorzano, also known as Victor Solorzano
Defendant—Appellant.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:16-CR-283-l

Before Higginbotham, Jones, and Higginson, Circuit Judges.
Per Curiam:*
Defendant Victor Manual Solorzano was convicted by a jury for drug
trafficking, assaulting two federal officers, and using a firearm in relation to a
crime of violence. Appearing pro se, Solorzano now challenges his conviction
and 567-month sentence. For the reasons that follow, we AFFIRM his

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

\

No. 17-11342

conviction but VACATE his sentence and REMAND for further
proceedings.
I. BACKGROUND
In November 2014, agents with the Department of Homeland
Security, Homeland Security Investigations (HSI) were investigating a drug
smuggling operation. The officers directed their attention toward Solorzano
following his encounter with a known suspect.
In October 2015, officers witnessed Solorzano meeting with unknown
individuals in parking lots on two separate occasions, prompting them to
initiate a traffic stop. They detained Solorzano when he failed to provide a
valid driver’s license and, upon searching his vehicle, discovered mobile
devices, a handgun, and some United States currency. A K-9 unit alerted
positive for narcotics, but Solorzano was ultimately released.
Following the traffic stop, three HSI task force officers—Shannon
McFarland, Michael Bali, and Joe Swanson—were assigned to the case to
investigate Solorzano. Swanson obtained an order from a Texas judge to
place a tracking device on Solorzano’s vehicle based on reasonable suspicion
of criminal activity. McFarland then dropped Bali off in front of Solorzano’s
residence so that he could install the device on Solorzano’s vehicle.
Bali installed the device without mishap, and Swanson arrived to pick
him up. But as Bali walked towards Swanson’s vehicle, Solorzano appeared,
assault rifle in hand, alongside his cousin, Edgar Solorzano (“Edgar”). After
a brief verbal exchange, Solorzano shot at Bali, wounding him and shattering
the rear window of Swanson’s vehicle. Solorzano continued to shoot at the
two officers as they sped away. The tracking device was never activated.
Throughout this encounter, McFarland, Bali, and Swanson drove
unmarked vehicles, wore plain clothes, and never informed Solorzano that

2

IaL

No. 17-11342

they were law enforcement. Edgar testified at trial that he and Solorzano did
not know they were firing at law enforcement officers, Bali himself
recognized on cross-examination that Solorzano had no reason to believe
they were officers.
Police later searched Solorzano’s home, where they found
methamphetamine. Edgar was arrested shortly thereafter. He identified
Solorzano as a methamphetamine dealer, and stated that Solorzano obtained
the narcotics from “the Mexicans.”

Solorzano was charged and

subsequently arraigned on the following charges:

possession of

methamphetamine with intent to distribute and aiding and abetting (Count 1
under 21 U.S.C. §§ 2, 841(a)(1) and (b)(1)(C)); two counts of assault on a
federal officer and aiding and abetting (Counts 3 and 5 under 18 U.S.C.
§ 111(b)); and two counts of using, carrying, brandishing, and discharging a
firearm during and in relation to a crime of violence and aiding and abetting
(Counts 4 and 6 under 18 U.S.C. § 924(c)(l)(C)(i)).1
Following a three-day trial in April 2017, a jury found Solorzano guilty
of these charges.

On November 2, 2017, the district court sentenced

Solorzano to 567 months’ imprisonment—147 months for counts 1, 3, and 5
to be served concurrently, 10 years for Count 4 to be served consecutively,
and 25 years for Count 6 to be served consecutively—followed by five years’
supervised release. Solorzano timely appealed.
II. ANALYSIS
Solorzano brings a host of claims challenging his conviction and
sentence. First, he contends the district court plainly erred by failing to hold
the traffic stop of his vehicle and installation of the traffic device violated his

1 Solorzano was also charged with possession of a firearm in furtherance of a drug
trafficking crime (Count 2), but he was found not guilty.

3

3<*3

No. 17-11342

Fourth Amendment rights. He also argues the evidence was insufficient to
convict him for assault of a federal officer, and that the Government failed to
provide him relevant material to this charge in violation of Brady. Last, he
challenges three of the sentencing enhancements imposed. We address each
issue in turn.
A. Fourth Amendment Claims
Solorzano first argues that the district court erred by failing to
suppress evidence deriving from both the traffic stop and placement of the
tracking device, on the ground that those events violated his Fourth
Amendment rights. Because Solorzano did not object to the admission of this
evidence at trial, we review for plain error. United States v. Knezek, 964 F.2d
394,399 (5th Cir. 1992). Solorzano must identify (1) a forfeited error, (2) that
is clear and obvious, and (3) that affected his substantial rights. United States
v. Abbate, 970 F.3d 601, 606 (5th Cir. 2020) (per curiam). “If he satisfies
those three requirements, we may, in our discretion, remedy the error, but
‘only if the error seriously affect[s] the fairness, integrity or public reputation
of judicial proceedings.’ ” Id. (quoting Puckett v. United States, 556 U.S. 129,
135,129 S. Ct. 1423,173 (2009)).
The Fourth Amendment protects against “unreasonable searches and
seizures.”

U.S. CONST, amend. IV.

“The stopping of a vehicle and

detention of its occupants constitutes a ‘seizure’ under the Fourth
Amendment.” United States v. Brigham, 382 F.3d 500, 506 (5th Cir. 2004)
(en banc). This court analyzes traffic stops using the framework set forth in
Terry v. Ohio, 392 U.S. 1 (1968).

“Under the two-part Terry reasonable

suspicion inquiry, we ask whether the officer’s action was: (1) ‘justified at its
inception’; and (2) ‘reasonably related in scope to the circumstances which
justified the interference in the first place. ’ ” United States v. Lopez-Moreno,
420 F.3d 420, 430 (5th Cir. 2005). This court assesses the “ ‘totality of the

4

No. 17-11342

circumstances’ ... to see whether the detaining officer has a ‘particularized
and objective basis’ for suspecting legal wrongdoing.”

United States v.

Arvizu, 534 U.S. 266, 273,122 S. Ct. 744, 750 (2002).
Solorzano does not identify any evidence that actually derived from
the traffic stop. In any event, the traffic stop was lawful. See United States v.
Powell, 732 F.3d 361, 372 (5th Cir. 2013) (reasonable suspicion of drug crime
justified traffic stop).
Solorzano’s Fourth Amendment claim objecting to the tracking
device fares no better. He contends that the state order to place the tracking
device on his vehicle was not valid because it was based on reasonable
suspicion rather than probable cause. Even assuming arguendo that the state
order was not a valid warrant, Solorzano has not demonstrated that the
district court clearly erred by failing to exclude the Government’s evidence
of his assault. Solorzano is correct, of course, that any evidence derived from
a Fourth Amendment violation must be disregarded under the fruit-of-thepoisonous-tree doctrine. See United States v. Cotton, 722 F.3d 271, 278 (5th
Cir. 2013). Nonetheless, derivative evidence “may be sufficiently attenuated
from the Fourth Amendment violation even where the violation is a but-for
cause of the discovery of the evidence. ” United States v. Mendez, 885 F.3d
899, 909 (5th Cir. 2018).
Solorzano cannot point to any evidence directly procured from the
tracking device because it was never used. And to the extent Solorzano
argues that his subsequent attack on Bali and Swanson stems from the
tracking device and must be suppressed, he cites no case law for the dubious
proposition that a defendant’s life-threatening assault on law enforcement
officers should be excluded because they installed a warrantless tracking
device. See United States v. Trejo, 610 F.3d 308, 319 (5th Cir. 2010) (a claim

5

S <\5

No. 17-11342

that is “novel” and “not entirely clear under the existing case authority” is
“doom[ed]... for plain error”). His claim fails.
B. Sufficiency of the Evidence and Brady Violation
Solorzano next challenges the sufficiency of the evidence to uphold
his conviction under 18 U.S.C. § 111(b). Section 111(b) forbids, in pertinent
part, the assault of a federal officer with a deadly weapon while the officer is
engaged in or on account of the performance of official duties. See §§ 111(a),
(b). Solorzano timely moved for a judgment of acquittal. As such, we review
his challenge de novo. United States v. Tinghui Xie, 942 F.3d 228, 234 (5th
Cir. 2019). Although our review is de novo, this standard is highly deferential
to the verdict, and “the relevant question is whether . .. any rational trier of
fact could have found the essential elements of the crime beyond a reasonable
doubt.” Id. (quoting Jackson v. Virginia, 443 U.S. 307, 319, 99 S. Ct. 2781,
2789 (1979)).
A state officer “acting in cooperation with federal officers in a federal
operation when he was assaulted ... easily fits within the coverage of
§[] 111.” United States v. Hooker, 997 F.2d 67, 74 (5th Cir. 1993). The officer
must be “acting within the scope of what he is employed to do as
distinguished from engaging in a personal frolic of his own. ” United States v.
Lopez, 710 F.2d 1071, 1074 (5th Cir. 1983) (cleaned up).

“Generally

speaking, a federal officer engaged in performing the function in which
employed, in good faith and colorable performance of his duty, even if
effecting an arrest without probable cause, is still engaged in the performance
of his official duties ... and is protected from interference or assault. ” Id.
(cleaned up). After reviewing the trial testimony of McFarland, Bali, and
Swanson, which documented their roles in the federal investigation, we hold
that the jury had sufficient evidence to conclude the officers were acting in
their capacities as HSI task force officers.

6

(o <k 4>

No. 17-11342

Relatedly, Solorzano brings a Brady claim, arguing the Government
hid documents showing Swanson, Bali, and McFarland were not acting as
federal officers when they placed the tracking device.2 Because Solorzano
did not raise this issue before the district court, we review for plain error.3
United States v. Rounds, 749 F.3d 326, 337 (5th Cir. 2014).
Brady holds that the prosecution’s suppression of evidence favorable
to the accused and material to either guilt or punishment violates a
defendant’s due process rights. Brady v. Maryland, 373 U.S. 83, 87, 83 S. Ct.
1194,1196-97 (1963). Evidence is material if there is a reasonable probability
that the result of the proceeding would have been different had the
prosecution disclosed the evidence. Trial evidence here revealed that the
officers in question obtained the order for the tracking device and installed it
■

while investigating Solorzano as part of the HSI task force. Contrary to
Solorzano’s contention, the documents in question do not support his
position that the officers were not acting as federal officers during this time.
Because the documents do not pose a reasonable probability of a different
outcome, Solorzano’s Brady claim is without merit.

2 The documents in question include a form designating Bali, Swanson, and
McFarland as customs officers; a memorandum of understanding between United States
Immigration and Customs Enforcement (ICE) and the “sponsoring agency” for the three
officers; an ICE directive outlining its policies for customs officers; and communications
between the three officers and their task force regarding the procurement and placement
of the tracking device.
3 This court has previously declined to review Brady claims that were not raised in
the district court. See, e.g., United States v. Rice, 607 F.3d 133, 142 (5th Cir. 2010). But
other cases have opted to review Brady claims raised for the first time on appeal for plain
error. See, e.g., United States v. Rounds, 749F.3d 326, 337 (5th Cir. 2014). Because
Solorzano’s claim fails regardless, we need not resolve this tension here.

1

7 «7

No. 17-11342

C. U.S.S.G. § 3Al.2(b): The Official Victim Enhancement
Solorzano asserts the district court erred in imposing a six-level,
official victim enhancement under U.S.S.G. § 3Al.2(b) when calculating the
guideline range for Counts 3 and 5 (the assaults on Bali and Swanson). Again,
Solorzano did not object in the district court, so we apply plain error review.
United States v. Chavez-Hernandez, 671 F.3d 494, 497 (5th Cir. 2012):
Section 2A2.2, which governs aggravated assault, mandates a twolevel increase when a defendant was convicted under § 111(b) for assault of a
federal officer, as Solorzano was. See § 2A2.2(b)(7). Comment 4 to § 2A2.2,
“Application of Official Victim Adjustment,” instructs:

“If subsection

(b)(7) applies, § 3A1.2 (Official Victim) also shall apply. ” § 2A2.2 comment.
(n.4). Section 3A1.2, in turn, states in relevant part:
(a) If (1) the victim was (A) a government officer or employee
... and (2) the offense of conviction was motivated by such
status, increase by 3 levels.
(b) If subsection (a)(1) and (2) apply, and the applicable
Chapter Two guideline is from Chapter Two, Part A (Offenses
Against the Person), increase by 6 levels.
All parties agreed, and the district court acknowledged, that Solorzano
did not meet the criteria of § 3 Al.2(a) (2). He did not know Bali and Swanson
were federal officers when he shot at them, and therefore could not have been
motivated by their official status. Even so, the district court read comment 4
to mean that the enhancement under § 3A1.2 applied regardless whether
Solorzano met its criteria.
This reading is incorrect. The “most natural reading” of comment 4
is that § 3A1.2 applies, provided the obvious caveat that its criteria are met.
United States v. Bustillos-Pena, 612 F.3d 863, 867 (5th Cir. 2010) (adopting
the most natural reading of the sentencing guidelines and its commentary).
And although we have not addressed this language previously, we have made

8

8

No. 17-11342
clear that an enhancement under § 3A1.2, when instructed by § 2A2.2(b),
necessitates that the defendant be motivated by officer status. In United
States v. Williams, 520 F.3d 414, 422-24 (5th Cir. 2008), the district court
imposed a § 3Al.2(b) enhancement after imposing a two-level § 2A2.2(b)
enhancement (much like here). The defendant argued that the court erred
in imposing the enhancement because he was not motivated by the victim’s
official status. Id. at 424. The court rejected his argument—not because the
defendant did not have to meet the criteria of § 3Al.2(b), but rather because
the court found he was motivated by the officer’s official status. Id.
Because Solorzano was not motivated by Bali’s and Swanson’s official
status, we hold the district court erred in imposing the six-level § 3Al.2(b)
enhancements. We further hold the error was plain or obvious, because the
guidelines’ language explicitly requires knowledge. See United States v.
Maturing 488 F.3d 657, 663 (5th Cir. 2007) (finding plain error when “plain
statutory language” makes resolution of issue “indisputably clear”).
And so we turn to the third prong of plain error review: whether the
error affected Solorzano’s substantial rights.

“When a defendant is

sentenced under an incorrect Guidelines range ... the error itself can, and
most often will, be sufficient to show” an effect on his substantial rights.
Molina-Martinez v. United States, 136 S. Ct. 1338,1345 (2016). Removing the
§ 3Al.2(b) enhancements would lower Solorzano’s applicable guidelines
range for Counts 1, 3, and 5 from the current range of 135-168 months of
imprisonment to 97-121 months of imprisonment.4

Such an error

4 The calculation is as follows. Without the six-level increase from § 3A1.2, the
adjusted offense level for Group 2 (i.e., Count 3) is lowered from 27 to 21, and for Group 3
(i.e., Count 5), lowered from 22 to 16. Group 1 (i.e., Count 1) would have an adjusted
offense level of 30—nine levels higher than Group 2 and 14 levels higher than Group 3.
Because Groups 2 and 3 are nine or more levels less serious than Group 1 (the group with
the highest level), neither group receives any units for computing the combined offense

9

No. 17-11342
substantially affected his rights. As for the fourth and final prong, the
Supreme Court has made clear that “ [i]n the ordinary case,... the failure to
correct a plain Guidelines error that affects a defendant’s substantial rights
will seriously affect the fairness, integrity, and public reputation of judicial
proceedings.” Rosales-Mireles v. United States, 138 S. Ct. 1897,1911 (2018).
We thus vacate Solorzano’s sentence on Counts 3 and 5 and remand so that
he may be resentenced under the appropriate Guidelines.
D. U.S.S.G. § 2Dl. 1(b)(5): The Importation Enhancement
Solorzano argues that the district court erred by imposing the
§ 2D1.1(b)(5) importation enhancement when calculating the Guidelines
applicable to Count 1. Section 2D1.1(b)(5) mandates a two-level increase
when the offense involved the importation of methamphetamine. Solorzano
asserts there was no evidence that the methamphetamine in question was
imported from Mexico. Because Solorzano objected to this enhancement
below, we review the district court’s factual finding for clear error. United
States v. Cisneros-Gutierrez, 517 F.3d 751, 764 (5th Cir. 2008). “There is no
clear error if the district court’s finding is plausible in light of the record as a
whole.” Id.
Solorzano relies on United States v. Nimerfroh, 716 F. App’x 311, 313,
316 (5th Cir. 2018), an unpublished decision where this court held that a
defendant’s statements that he was “dealing with the ‘cartel, > >> absent
further context, was not enough to support an importation enhancement
under § 2D1.1(b)(5). Solorzano reasons there is similarly not enough context

level. See § 3Dl.4(c). Solorzano would therefore have 1.0 units, rather than the current
2.5, and would not receive an increase pursuant to § 3D1.4 of the Guidelines. With a total
offense level of 30, and a criminal history category of I, the Guidelines dictate a range of 97121 months. See U.S.S.G. Ch. 5, Pt. A (Sentencing Table). We recognize, of course, that
this is not much of a reduction all things considered, as Solorzano’s sentence is substantial.

lo q lo
10

No. 17-11342
here. Not so. In overruling Solorzano’s objection, the district court observed
that officers testified to witnessing Solorzano meeting with a known suspect
in an investigation centered on narcotics “coming through the border. ” The
court also pointed to Edgar’s statements in the Presentence Report—
specifically, that Solorzano had “obtained methamphetamine from ‘the
Mexicans ) 5> and had referred to his source as the “wetbacks.” The court
explained the latter term was a “derogatory or pejorative term for a Mexican
National,” and concluded Solorzano “was aware that the methamphetamine
was being deported [sic] from Mexico. ” From this record, the district court’s
finding is certainly plausible, and there is no clear error as a result.
E. Mandatory Consecutive Sentence for Second § 924(c)(1) Conviction
Finally, Solorzano challenges the 25-year mandatory consecutive
sentence for Count 6, his second § 924(c)(1) conviction. The Supreme
Court in Deal v. United States, 508 U.S. 129,133,113 S. Ct. 1993,1997 (1993)
held that the 25-year mandatory minimum under § 924(c) applies when a
defendant is convicted of multiple § 924(c) counts in a single proceeding.
Recognizing that we are bound by Supreme Court precedent, Solorzano
raises two new arguments on appeal; we review for plain error. United States
v. Nesmith, 866 F.3d 677, 679 (5th Cir. 2017).
First, he attempts to distinguish Deal, arguing that his case poses the
novel scenario in which the two § 924(c)(1) violations were committed
during the same criminal transaction.5 But neither Deal nor this court
distinguishes convictions that occurred during the same transaction. See
United States v. Houston, 625 F.3d 871, 874 (5th Cir. 2010) (imposing the 25-

Solorzano also preserves his argument before the district court that Deal was
wrongly decided.

ii

M all

No. 17-11342

year mandatory minimum sentence under § 924(c)(1)(C) for crimes
committed in the same criminal transaction, a carjacking).
Second, Solorzano turns to § 403 of the First Step Act of 2018,
contending it applies retroactively because his sentence is on appeal. Section
403 amended § 924(c)(1), so that “to trigger the 25-year minimum, the
defendant must have been convicted of a § 924(c)(1) offense in a prior,
separate prosecution.” United States v. Gomez, 960 F.3d 173, 176 (5th Cir.
2020). Section 403 explicitly states, however, that it will “apply to any
offense that was committed before the date of enactment of this Act
[December 21, 2018], ifa sentence for the offense has not been imposed as ofsuch
date of enactment.” First Step Act of 2018, Pub. L. No. 115-391, § 403(b),
132 Stat. 5194, 5222 (emphasis added). “A sentence is ‘imposed’ when the
district court pronounces it, not when the defendant exhausts his appeals.”
Gomez, 960 F.3d at 177.

The district court sentenced Solorzano on

November 2, 2017, over a year before the Fair Sentencing Act was enacted.
For these reasons, we affirm the district court’s sentence on Count 6.
III. CONCLUSION
Based on the foregoing, Solorzano’s conviction is AFFIRMED.
Because the district court plainly erred in applying the sentence
enhancement under § 3Al.2(b) for Counts 3 and 5, Solorzano’s sentence is
VACATED.

We REMAND for resentencing consistent with this

opinion.

12

12 q YL

Additional material
from this filing is
available in the
Clerk's Office.

